<html>
<title> - HISTORY MUSEUM OR RECORDS ACCESS AGENCY? DEFINING AND FULFILLING THE MISSION OF THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 HISTORY MUSEUM OR RECORDS ACCESS AGENCY? DEFINING AND FULFILLING THE 
      MISSION OF THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 16, 2009

                               __________

                           Serial No. 111-163

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-161 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
HENRY CUELLAR, Texas
                     Darryl Piggee, Staff Director







































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 16, 2009................................     1
Statement of:
    Ferriero, David S., Archivist of the United States; G. Wayne 
      Clough, Secretary of the Smithsonian Institution; and James 
      H. Billington, Librarian of Congress.......................     7
        Billington, James H......................................    27
        Clough, G. Wayne.........................................    19
        Ferriero, David S........................................     7
    Weismann, Anne L., chief counsel, Citizens for Responsibility 
      and Ethics in Washington; Janet A. Alpert, president, 
      National Genealogical Society; Kevin M. Goldberg, legal 
      counsel, American Society of News Editors; and Carl 
      Malamud, president and founder, Public.Resources.Org.......    46
        Alpert, Janet A..........................................    53
        Goldberg, Kevin M........................................    61
        Malamud, Carl............................................    74
        Weismann, Anne L.........................................    46
Letters, statements, etc., submitted for the record by:
    Alpert, Janet A., president, National Genealogical Society, 
      legal counsel, American Society of News Editors, prepared 
      statement of...............................................    55
    Billington, James H., Librarian of Congress, prepared 
      statement of...............................................    29
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     4
    Clough, G. Wayne, Secretary of the Smithsonian Institution, 
      prepared statement of......................................    21
    Ferriero, David S., Archivist of the United States, prepared 
      statement of...............................................    10
    Goldberg, Kevin M., legal counsel, American Society of News 
      Editors, prepared statement of.............................    63
    Malamud, Carl, president and founder, Public.Resources.Org, 
      prepared statement of......................................    76
    Weismann, Anne L., chief counsel, Citizens for Responsibility 
      and Ethics in Washington, prepared statement of............    48


 HISTORY MUSEUM OR RECORDS ACCESS AGENCY? DEFINING AND FULFILLING THE 
      MISSION OF THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                              ----------                              


                      WEDNESDAY, DECEMBER 16, 2009

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                  National Archives
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Norton, Driehaus, Cuellar, 
and McHenry.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Yvette Cravins, counsel; Frank Davis and Anthony 
Clark, professional staff members; Charisma Williams, staff 
assistant; Adam Hodge, deputy press secretary (full committee); 
Leneal Scott, information systems manager (full committee); 
Adam Fromm, minority chief clerk and Member liaison; Howard 
Denis, minority senior counsel; Chapin Fay and Jonathan 
Skladany, minority counsels.
    Mr. Clay. Good afternoon. The Information Policy, Census, 
and National Archives Subcommittee of the Oversight and 
Government Reform Committee will now come to order.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    And without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    Welcome to today's hearing on the mission of the National 
Archives. The purpose of today's hearing is to examine the 
National Archives' mission and how it is designed and 
fulfilled. We will consider several important topics, including 
the views of the new Archivist of the United States on NARA's 
mission, learning how the leaders of similar agencies, The 
Smithsonian Institution and the Library of Congress, balance 
competing needs while fulfilling their core missions, and 
hearing opinions of agency stakeholders on NARA's performance.
    This is a time of rising budget pressures, explosive growth 
of Federal, especially electronic records, and mounting urgency 
to make these records available to the public, the media, the 
courts and Congress more rapidly.
    The subcommittee has heard from many of NARA's 
constituencies that they are concerned the agency's increasing 
emphasis on museum exhibits and related programs may be not 
only straining its resources, but diverting its focus from 
fulfilling its core mission. As we will hear from several of 
our witnesses, managing, preserving and providing prompt and 
proper access to Federal records has been and must continue to 
be the primary mission of the National Archives.
    It is commendable that NARA wants to expand access 
programs, increasing the number and title of records available 
as well as increasing the number of those who can directly 
examine those records and learning from it and interpreting 
them for themselves. However, there are questions as to whether 
a museum exhibit truly qualifies as a records access program 
and if public visitors to a museum are actually exploring 
records.
    There is also the question raised by many concerned about 
the agency, how NARA's elevation of its role as a history 
museum above that of its core mission may be increasing the 
agency's already considerable delays in receiving, preserving 
and opening Federal records.
    The National Archives celebrated its 75th Anniversary this 
year. Congratulations to all National Archives employees. The 
history of the agency demonstrates that from its founding in 
1934, each archivist has shaped the focus of the Archives to 
meet the unique challenges they face.
    Archivist Connor, starting a new agency, had to invent 
management procedures for handling Federal records which by 
then already had grown to more than 10 million cubic feet. 
Archivist Buck changed the Archives from a passive records 
repository to an active service agency. Archivist Grover 
developed a plan to acquire and administer Presidential records 
that resulted in the Presidential Libraries Act of 1955.
    Archivist Rhoads improved records management 
declassification and opened records for the scholarly use. 
Archivist Warner fought for and won independence for the 
National Archives. Acting Archivist Peterson prepared the 
agency's first strategic plan. Archivist Carlin improved 
communication with NARA's constituents and established the 
approach to electronic records management. Archivist Weinstein 
emphasized civic literacy and expanded museum education and 
outreach programs.
    We trust that the new Archivist is ready to meet the 
current challenges and we offer our strong support for him as 
he begins his tenure. It is this subcommittee's hope that 
through our hearing today we can gain a better understanding of 
NARA's mission and issues of stakeholder concern, and provide 
the National Archives with some important information and 
advice they can use in reexamining how best to define and 
fulfill their mission.
    Before we proceed, I would like to recognize the important 
contributions of several groups who have greatly assisted this 
subcommittee in preparing for this hearing including the 
International Association of Jewish Genealogical Societies, a 
records preservation and access committee, and 17 other 
research organizations. We thank them for their efforts and 
statements of support.
    And I now yield to my good friend from North Carolina, Mr. 
McHenry.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. McHenry. Thank you, Mr. Chairman. I appreciate your 
leadership across the board with this committee and your 
dedication and your friendship.
    And thank you all for being here today. This is certainly 
an important matter of effective governance and making sure 
that we have records that are accessible to the public, whether 
across the three separate agencies we are talking about today.
    Mr. Chairman, if I could, with time being short, with these 
votes ongoing, if I could submit my statement for the record 
and just say, in short, I certainly appreciate you three 
gentlemen being here. I certainly appreciate the importance of 
what you are doing as individuals, and the importance of 
ensuring that we have records available for future generations, 
whether it is the challenges of digital records of keeping the 
texts that we currently have available.
    So, thank you.
    Mr. Clay. Without objection, Mr. McHenry's statement will 
be included in the hearing record.
    Any other opening statements? If not, we can proceed to the 
panel.
    Our first witness will be the Honorable David S. Ferriero, 
the 10th Archivist of the United States.
    Prior to his nomination in July 2009 by President Obama to 
lead the National Archives, Mr. Ferriero served as the Andrew 
W. Mellon Director of the New York Public Libraries, the 
largest public library system in the United States. Among his 
responsibilities was the development of the library's digital 
strategy, which includes a digital library of more than 750,000 
images that may be accessed fee of charge by any user around 
the world.
    Mr. Ferriero also served in top positions at two of the 
Nation's major academic libraries, the Massachusetts Institute 
of Technology and Duke University. He is the first librarian to 
serve as Archivist of the United States. We want to 
congratulate Mr. Ferriero on his appointment, welcome him and 
wish him well.
    Thank you for being here.
    Our next witness is Dr. G. Wayne Clough, the 12th secretary 
of the Smithsonian Institution.
    Dr. Clough currently leads a plan to digitize much of the 
Smithsonian's 137 million objects. Prior to his becoming 
secretary in July 2008, he served as president of the Georgia 
Institute of Technology for 14 years.
    He received a Doctorate in Civil Engineering from the 
University of California Berkeley. Dr. Clough has been a 
professor at Duke University, Stanford University and Virginia 
Tech, and also served as Provost at the University of 
Washington.
    And after Dr. Clough, we will hear from Dr. James H. 
Billington, the 13th Librarian of Congress.
    Dr. Billington has served as Librarian for more than 22 
years, championing, among other important programs, the 
American Memory National Digital Library. He earned his 
Doctorate from Oxford University where he was a Rhodes Scholar 
at Balliol College.
    Following service with the U.S. Army, he taught history at 
Harvard University and at Princeton University. Prior to his 
appointment as Librarian, Dr. Billington was director of the 
Woodrow Wilson International Center for Scholars for 14 years.
    I thank all of our witnesses for appearing today and look 
forward to their testimony.
    It is the policy of the subcommittee to swear in all 
witnesses before they testify and I would ask you now to please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you and you may be seated. Let the record 
reflect that the witnesses answered in the affirmative.
    I ask that each of the witnesses now give a brief summary 
of their testimony. Please limit your summary to 5 minutes. 
Your complete written statement will be included in the hearing 
record.
    Mr. Ferriero, you may begin.

   STATEMENTS OF DAVID S. FERRIERO, ARCHIVIST OF THE UNITED 
     STATES; G. WAYNE CLOUGH, SECRETARY OF THE SMITHSONIAN 
  INSTITUTION; AND JAMES H. BILLINGTON, LIBRARIAN OF CONGRESS

                 STATEMENT OF DAVID S. FERRIERO

    Mr. Ferriero. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am David S. Ferriero, Archivist of the United States. 
Thank you for this opportunity to discuss the mission of the 
National Archives.
    I am pleased to appear here alongside the Librarian of 
Congress, Dr. Billington, and the secretary of the Smithsonian, 
Dr. Clough. I am looking forward to the benefit of their wisdom 
as heads of major national institutions that, like the 
Archives, preserve and make the historical and cultural 
treasures of our country accessible to millions of people.
    It has been just over a month since I was confirmed as the 
10th Archivist of the United States. I come to the job having 
spent my entire career in service to people seeking access to 
information, first at the libraries of MIT and Duke University, 
and most recently as the Director of the Libraries of the New 
York Public Library.
    The National Archives exist for access, and I firmly 
believe that every component of the agency is in service to 
that fundamental mission. We do this in records management by 
ensuring that agencies create and maintain records of their 
activities for future access. We do this in preservation by 
safeguarding the long-term viability of records so that they 
can be accessed. We do this in reference services by responding 
to requests for access in specific records. And we do this in 
our museum and educational programs by making records 
interesting and, indeed, exciting to visitors.
    Before I comment on the issues that you have asked me to 
address, I would first like to say that we, you have my 
commitment to an open dialog, from me and my leadership team, 
as you conduct your oversight of the Archives.
    One concern high on your list and mine is agency security, 
both for information technology systems and physical holdings. 
We absolutely must be able to ensure that NARA is able to 
safeguard the documentary heritage of our Nation.
    I am pleased to tell you that on the 7th of December, I 
announced the creation of the National Archives Holding 
Protection Program. This program will strengthen the protection 
of original records, regardless of their format. As a team 
leader, I have appointed Mr. Eric Peterson who comes to NARA 
from the Naval Information Operations Command where he was 
responsible for loss prevention and classified programs.
    Also, I know that this committee is very familiar with the 
work of NARA's Inspector General. I plan to work closely with 
him and the security staff on the front lines to improve NARA 
security across the board.
    Another priority is meeting the challenge of archiving 
electronic records. I believe NARA has built a solid foundation 
of promoting and ensuring effective records management across 
the Federal Government. However, the agency faces serious 
challenges when it comes to electronic records, including the 
continuing proliferation of formats in which Federal records 
are created and the mixed nature of Federal recordkeeping, 
where agencies create both paper and electronic records.
    Our responsibility in regard to electronic records it not 
just to build the electronic records archives. It is also to 
ensure that agencies are managing the electronic records they 
create and identify as permanently valuable. We can, and we 
will, do a better job of making sure agencies are taking this 
responsibility seriously.
    The title of this hearing begins with a question about our 
museum function. We have been inviting the public to see 
records and exhibits at the National Archives for our entire 75 
year history, and we have long been leaders in encouraging the 
use of primary sources in history and civics education. The 
last decade has brought substantial growth in our exhibit and 
education programs, thanks to the Foundation for the National 
Archives and the Presidential Library Foundations which raise 
millions of dollars to fund museum and education programs here 
and across the Nation.
    More than a year ago, NARA began to look into ways that we 
could better provide visitor services at the National Archives 
building while retaining the service that we provide to 
researchers. The significant drop is microfilm usage made it 
possible to reduce the size of the microfilm reading room and 
expand exhibit space without diminishing researcher services.
    I was dismayed, however, that NARA management did a poor 
job communicating with both research staff and researchers on 
this issue and in recent weeks there has been a great deal of 
concern expressed by some of our researchers about the changes 
under discussion. We will be holding a public forum tomorrow 
afternoon to discuss these issues. I am personally 
participating in the forum, not only as the Archivist, but as 
one who has spent four decades as a research librarian. Those 
who visit our facilities as researchers are highly valued 
stakeholders and they have the ear of this research librarian 
turned archivist.
    As I set out to improve the agency's communications with 
stakeholders, I am including Congress. First, I have already 
met with some members of this subcommittee and I am looking 
forward to meeting with all of you as soon as possible. Second, 
the Archives have 44 facilities in 19 States, and I intend to 
reach out to each Congressperson who represents the women and 
men who work at these locations.
    Additionally, I want all Members to know that they have an 
open invitation to visit any NARA facility, especially the one 
just a few blocks away, so that they can get a first-hand look 
at what we do. We have a great story to tell with the records 
we hold which include the records of Congress starting with day 
1 of the First Congress. Come and spend 30 minutes with us and 
I can promise you a very memorable experience.
    Finally, I share this subcommittee's concerns with NARA's 
management culture. As I set about changing that culture, my 
immediate goal is addressing unacceptably poor survey results 
on employee job satisfaction. All NARA employees, from those 
operating forklifts to the most senior archivists, are equally 
important to the success of this mission. I say this with the 
prospective of one who began his career shelving books.
    In my very short time as Archivist of the United States, I 
have become keenly aware of the skill, talent and spirit that 
have shaped this unique organization for its first 75 years. I 
have also become aware of the many challenges that face this 
agency and, in that regard, I would like to thank you, Mr. 
Chairman, and the members of the subcommittee, for the fair and 
honest oversight you provide.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Ferriero follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. Clay. Thank you, so much, Mr. Ferriero, for your 
testimony.
    Mr. Clough, you may proceed.

                  STATEMENT OF G. WAYNE CLOUGH

    Mr. Clough. Thank you, Chairman Clay, Ranking Member 
McHenry and the other members of the subcommittee for this 
opportunity to testify.
    I want to extend my congratulations to my new colleague, 
the Archivist of the United States, David Ferriero, and I offer 
the Smithsonian's assistance to him in this transition. And it 
is a pleasure to be here with my colleague, the Librarian of 
Congress, Dr. James Billington.
    Our collective mission is extremely important. The National 
Archives and the Records Administration preserves the records 
of the Federal Government. The Library of Congress serves as 
the largest library in the world. And the Smithsonian 
Institution preserves the history, arts and sciences, and 
cultural traditions of our country. We complement each other as 
we pursue our shared goal of preserving our collections and 
making them as accessible as possible as fast as we can to 
researchers, students, teachers, families and the American 
public.
    With 19 museums, 20 libraries, numerous research centers, 
the National Zoo and more than 137 million objects and 
specimens in our collections, the Smithsonian stands out as a 
unique entity. Our archival collection includes scientific 
documents, records and other media totaling more than 100,000 
cubic feet and forms the foundation for research, scholarship, 
publications, exhibitions and public programs unique to the 
Smithsonian. This year, nearly 30 million visits were made to 
the Smithsonian. And we had 188 million visitor sessions on our 
various Web sites.
    To ensure that we bring our resources to the world, we 
recently embarked on the most inclusive and comprehensive 
strategic planning exercise in the Smithsonian's history. I 
have detailed discussion on this in my written testimony. 
Briefly, our new vision calls for us to shape the future by 
preserving our heritage, discovering new knowledge and sharing 
our resources with the world.
    Our plan organizes our activities around four focused 
things, so we will not be doing everything or everybody. One is 
unlocking the mysteries of the universe, two, understanding and 
sustaining a biodiverse planet, three, valuing world cultures, 
and four, understanding the American experience. The plan 
reaffirms our core values of integrity, responsibility and 
organizational excellence.
    The Nation's growing diversity challenges us to reach new 
audiences and to use new partners to do to so. And we will do 
this primarily using digital technology. The newer collections 
are available virtually, the less these materials are subject 
to harmful handling and damage. And it also saves additional 
funds for us because we do not have to process as many 
applications for use of our materials. But we also want to make 
sure that our school children, the teachers, the parents and 
the scholars have access to these extraordinary collections 
that we have in Washington.
    Our first secretary, Joseph Henry, was legally charged with 
preserving the records of the Smithsonian Institution. The 
Smithsonian Institution archive holdings constitute the 
official memory of the Smithsonian, and document the 
development of American sciences, arts, culture and technology.
    The United States is one of the most advanced countries in 
the world in terms of providing access, public use for public 
information. U.S. policies of professional ethics are focused 
on the widest most equitable openness for archival holdings. 
However, many of our collections remain inaccessible for a host 
of reasons: insufficient staff, lack of expertise to work on 
special formats, or special language materials. In addition, 
some institutions have large backlogs and uncatalogued or 
unprocessed material, and we need to work on that.
    I look forward to the Smithsonian Institution's 
collaboration with my colleagues at the Library of Congress and 
the National Archives. We each play an important role in 
inspiring the public by engaging them in an exploration of what 
it means to be an American in today's world.
    For 163 years, the Smithsonian Institution has built the 
national collections, disseminated innovative research, and 
welcomed millions of visitors to its museums, creating a 
reputation so strong that the Smithsonian is known as a symbol 
of America throughout the world.
    I am extremely proud of our passionate and dedicated staff 
and our volunteers, and will continue to work to see that 
progress is made, is the same as we go forward.
    Again, thanks to the Chair and the ranking member for my 
opportunity to testify.
    [The prepared statement of Mr. Clough follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. Clay. Thank you for your testimony, Dr. Clough. Thank 
you so much for being here.
    Dr. Billington, you have 5 minutes.

                STATEMENT OF JAMES H. BILLINGTON

    Mr. Billington. Thank you, Mr. Chairman, Mr. McHenry, 
members of the subcommittee. I appreciate very much being 
invited to appear before the subcommittee with two such 
distinguished leaders as the Smithsonian's secretary, Wayne 
Clough, and the new Archivist of the United States, David 
Ferriero. We wish Mr. Ferriero well in this new job and look 
forward to working with him.
    The Library of Congress is America's oldest Federal 
cultural institution and we have had good relations for many 
years with the Smithsonian and the Archives whose different 
collections and missions generally complement ours. We all 
face, however, similar challenges to acquire, preserve and make 
accessible important primary materials and to serve both 
researchers and the general public.
    Congress, Mr. Chairman, has been the greatest patron of the 
library in the history of the world, building up for 209 years 
the world's largest, most comprehensive and multi-formatted 
library covering some 470 languages stored on more than 650 
miles of shelving and relentlessly adding 10,000 new analog 
items daily.
    Our top priority is to serve the research needs of 
Congress, which we do with our Congressional Research Service, 
providing objective, comprehensive research and analysis on 
policy matters, and responding last year to nearly 900,000 
research and reference requests from the Congress.
    Our law library is the foreign law research arm of 
Congress. And we serve Congress in other ways, lending books to 
Members and staff, archiving veterans' oral histories collected 
through Members' offices, and providing a special Members' 
reading room and the beautiful Members Room for meetings in the 
Jefferson Building exclusively for Members' use.
    Since we are also the de facto national library of the 
United States, our second major priority is serving the 
American people. Last year, we responded to over half a million 
public reference requests in our 21 reading rooms, circulated 
22 million free Braille and recorded books and magazines to 
disabled patrons all over the country through local libraries, 
and fielded more than 6.5 billion electronic transactions on 
the library's free educational Web site, which contains nearly 
16 million digital files of American history and culture.
    Thousands of researchers visit the library annually to 
study first-hand our unparalleled collections which include 
many materials that cannot be found anywhere else, the Unique 
Copyright Deposit of America and the world's largest 
collections not just of books and periodicals, but of maps, 
music and movies.
    We do massive preservation work, notably at the library's 
new Audiovisual Conservation Center in Culpepper, Virginia, and 
through the congressionally mandated National Digital 
Information Infrastructure and Preservation Program, which we 
direct and coordinate with 176 partners, including the Archives 
and the Smithsonian.
    When the library moved out of the Capital and into the new 
Jefferson Building in 1897, Congress made it clear that the 
interior space was designed to be not only a library, but a 
public showcase with exhibitions where visitors could go to be 
inspired by the quest for knowledge as an essential part of our 
knowledge-based democracy.
    With a recent renovation by Congress of the Jefferson 
Building, our flagship building, our introduction last year of 
interactive enhancements in the public spaces and popular 
exhibits, we have found that important balance, serving both 
the scholarly community and the general public. The facilities 
for the scholarly community have actually been expanded with 
the addition through private funds of our Kluge Center.
    The Library of Congress has also been an innovator in the 
internet age, superimposing new digital collections and 
services onto to traditional analog ones, reaching out to the 
young generation and to lifelong learners to stimulate 
curiosity and creativity wherever they live.
    We featured, beginning in the mid-1990's, free digital 
access to our collections, putting online both our American 
Memory National Digital Library and THOMAS, our legislative 
data base. This year, we added a world digital library in 7 
languages with some material covering all 192 members of 
UNESCO. We also provide online resources targeted specifically 
for K through 12 students and teachers using our primary source 
documents. Our Web site usage has increased 6,000 percent since 
1996.
    The library, Mr. Chairman, like America itself, adds the 
new without discarding the old. We continue to maintain the 
balance in serving Congress and the scholarly community while 
welcoming, thanks to the passageway from the New Capitol 
Visitors Center, visitors both onsite as well as online to this 
unique storehouse both of the world's knowledge and of 
America's cultural and intellectual creativity.
    Thank you very much for inviting me today and I would be 
happy to answer any questions that you may have.
    [The prepared statement of Mr. Billington follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Dr. Billington. During my 
college days, I also remember the Library of Congress having a 
pretty good law library. I guess you still do.
    Mr. Billington. Yes, we do.
    Mr. Clay. I thank all of the panel for their testimony.
    And now I recognize my friend from Ohio, Mr. Driehaus, to 
begin the questioning.
    Mr. Driehaus. Well, thank you very much, Mr. Chairman, and 
I want to thank all the witnesses. You represent three of the 
most important institutions, obviously, in the United States 
and we appreciate the tremendous work.
    And Mr. Ferriero, welcome. I just add my congratulations to 
everyone else's. This question is to you.
    Last week, the Director of the Office of Management and 
Budget issued an Open Government Directive that requires 
agencies to take a number of actions to improve access to 
Government information. Under the directive, each agency must 
take steps to reduce its backlog of Freedom of Information Act 
requests by 10 percent each year.
    What actions will NARA take to reduce its Freedom of 
Information Act backlog as required by the Open Government 
Directive and what other steps does NARA plan to take to 
implement the directive?
    Mr. Ferriero. Just before I arrived, the agency established 
OGIS, which is the office that is charged with reducing the, 
this backlog and working with the agencies, the CIA and the 
Justice Department especially, to ensure that we are 
streamlining the process. The point person, Miriam Nesbit, who 
is going to head up this office, has been in place since the 
end of September. She is now building a staff and working very 
closely, especially with the CIA, looking at technological 
solutions to this problem.
    Mr. Driehaus. When you referenced streamlining, can you 
give specific examples of what is being done to streamline the 
process?
    Mr. Ferriero. She is in the very beginnings of establishing 
new processes for speeding up the, these requests.
    Mr. Driehaus. Okay.
    Mr. Ferriero. I would be happy to come back when we have 
something concrete to share.
    Mr. Driehaus. My other question gets to this balance 
between the role of the Archives in collecting information and 
making that available to the public, and the display. Mr. 
Billington, the Librarian, was talking about the role of the 
Library of Congress and the design of the Jefferson Building. 
In your testimony, you talk about the balance that is struck 
between storing the materials and also displaying those 
materials for the public.
    Mr. Ferriero, what do you believe is the balance for the 
Archives? Is it the same as what we are trying to achieve in 
the Library of Congress or is that balance different? Is the 
mission significantly different such that we do not do the same 
type of, we do not have the same type of emphasis on sharing 
and displaying the information as the Library might have?
    Mr. Ferriero. I think we have similar missions. We have 
different content that we are talking about. My contents are 
the records of the United States. And I think we have the same 
responsibility to provide the museum and educational aspects of 
our mission as the Library of Congress does. This is the way we 
excite and interest a whole new generation of people. I am 
looking especially at the K through 12 community, about 
learning firsthand about this country, about getting a sense of 
excitement about our history. And nothing can compare at 
looking at the physical, the real, original documents. And it 
is in service of training the next generation of researchers 
and scholars.
    Mr. Clay. Thank you. The gentleman yields back and I go to 
my friend from North Carolina, Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman. And I appreciate your 
having this hearing, Mr. Chairman. I think this is an important 
discussion for us to have and for the Congress to be aware of 
these important documents we have agencies taking care of.
    Mr. Ferriero, I certainly appreciate your appointment and 
the credibility you bring to a very important agency and an 
agency in much need of strong leadership and certainly 
appreciate your connection to North Carolina as well, even 
though it is with Duke. [Laugher.]
    But we have discussed in private, discussed my concerns 
about some systemic issues with NARA. Now, granted, you have 
only been on the job a few days. But in May, before this 
committee, the IG, Mr. Brachfeld of NARA, discussed the loss of 
sensitive data from your College Park location. And his, what 
he said then was that he saw an agency with complete lack of 
internal controls, to paraphrase. How are you going to address 
that?
    Mr. Ferriero. The security of the collections is high on my 
list of these issues that I have identified and we have started 
to work on. Security is something that every research 
collection deals with and it is this tension between providing 
access to collections and protecting them.
    Security is a state, a culture of vigilance that is not a 
one-off kind of operation. We have come up with a set of 
recommendations. And you have done security. It is something 
that you think about every day, every minute of your control of 
the collections. And that is the kind of urgency that I intend 
to create within the agency. The Inspector General was correct. 
The culture has resulted in a sense of laxity around security.
    Mr. McHenry. And addressing that culture, it seems to me 
that security, when I think of security, it is when I go into 
the facility and you see the Constitution under a lot of glass 
and some serious security. But the concerns that I have are in 
a warehouse, and the disappearance of many terabytes of 
information. It is interesting that I learned this year what a 
terabyte is and the discussions we have about that massive 
amount of information. And now the story today about finding 
emails from the Bush administration.
    And so there have been some losses. There have been some 
gains. But I think they show that there is a need of a cultural 
change and I appreciate your willingness to address that. But 
what are the substantive steps you will take to change the 
culture?
    Mr. Ferriero. We have established the Holding Security Task 
Force. We have hired a person with a security background to 
head up that team and he has the authority, working with the 
Inspector General, to analyze the situation and come up with a 
whole new set of security procedures and policies.
    And I should say that security is not the responsibility of 
just a few in the organization. Everyone who works for NARA has 
to have this sense of vigilance around security.
    Mr. McHenry. Okay, certainly.
    Mr. Ferriero. This is another one of those areas where I 
would be happy to come back and report to the subcommittee on 
exactly what we have come up with.
    Mr. McHenry. We have also had, before your appointment, a 
discussion about the electronic records and the ongoing changes 
there. Can you touch on that? It is sort of an open-ended 
opportunity for you to discuss this because, in terms of these 
changes in technology, just in the last 5 year. You know, I 
have a Kindle from Amazon.com. You know, that technology was 
not available 5 years ago. The BlackBerry today is much more 
powerful than the BlackBerry was 5 years ago, and on and on and 
on.
    So, how are you going to establish this electronic records 
system that we can continually update and it makes sense 20 
years from now?
    Mr. Ferriero. Well, it is, it is another one of those 
challenges that is at the top of my list to figure out and get 
right. This is an initiative that was started many years ago. 
In the time that NARA launched this process, the technology has 
changed already. The time line needs to be shortened.
    The challenge is that every agency has been allowed to 
create their own electronic records management system with 
varying platforms and software packages and they do not talk to 
each other. So, it is a little more complicated that just 
ingesting all of these electronic records. It is establishing a 
set of standards.
    But primarily, and philosophically, at heart is the 
Archives, the Archivist, reassuming his responsibility for 
ensuring that the agencies are creating these systems and 
delivering in a way that we can deal with them. And that is 
something that there has been great laxity in the past. No 
annual audits.
    And, as you and I discussed, in most agencies it is usually 
a junior person who has responsibility for records, high 
turnover, not adequate training, and the Archives has not 
stepped in to, you know, exercise their authority.
    Mr. McHenry. Well, thank you for your straightforwardness 
on this and your vigilance and we wish you the best.
    Mr. Ferriero. And I do not want to paint a picture of this 
is a piece of cake and it is going to be easy to solve. It is 
not.
    Mr. McHenry. Well, we are glad you are in charge and I know 
it certainly is not an easy, it certainly is a challenge and a 
distinct challenge based on the culture you are walking into 
and these electronic records, in particular, and what that adds 
to this whole general challenge.
    Thank you. Thank you, Mr. Chairman.
    Mr. Clay. The gentleman's time has expired. The gentleman 
from Texas, Mr. Cuellar, is recognized.
    Mr. Cuellar. Thank you, Mr. Chairman. I want to welcome all 
three of you all. We appreciate what you all do and Mr. 
Ferriero, also welcome.
    Let me ask you one question for all of you all. Do you all 
have a strategic plan for each of your agencies, that is, a 
strategic plan that has the core mission, that has the goals, 
that has the indicators, the inputs, and can you all make that 
available to us? Mr. Ferriero.
    Mr. Ferriero. The Archives does have one. It was recently, 
it was updated just before I arrived. It is not my strategic 
plan.
    Mr. Cuellar. Okay.
    Mr. Ferriero. But I will be happy to make it available to 
you.
    Mr. Cuellar. When you say it is not mine, I assume you are 
going to make some changes to it?
    Mr. Ferriero. I think a new Archivist needs to establish 
himself in the agency. And one of the ways of doing that is 
creating his own strategic plan.
    Mr. Cuellar. And is there a way to measure your results?
    Mr. Ferriero. Every strategic plan should have, should 
include, evaluative measures. Yes.
    Mr. Cuellar. Thank you. Mr. Clough.
    Mr. Clough. At the Smithsonian, you have our plan. I'm 
sorry. You have our plans and it is in the materials that you 
have. And it is a plan that we just developed and it took about 
a year to develop. We had a cultural problem also at the 
Smithsonian, and so we wanted to make it an inclusive process 
to get people to buy in to the plan. And we finished that, and 
we are very pleased with the way the results have come out.
    We do, we are required by our Board of Regents to have very 
explicit goals, and measurables against those goals. And so we 
have goals that we expect to be measured against over the life 
of the plan, which is basically 2010 to 2015, but also annual 
goals. And of the annuals goals, we actually measure our 
progress toward those goals every quarter.
    Mr. Cuellar. Okay. Good.
    Mr. Billington. We are halfway through our current 
strategic plan and we are engaged, we have engaged in a 
virtually year-long process of revising and extending it to 
2016. We are nearly finished that exercise. We have been 
conducting a really thorough review, as well as a review of our 
management agenda, and it will have some new emphasis and we 
will get you a copy of this. It is almost complete and we will 
get it to you as soon as you want it.
    However, revision of the basic strategic plan that we have 
been operating under for 2\1/2\ years. That is the normal 
thing, in mid-course, reexamination of your strategic plan, 
which is what we have been doing. And we have decided that the 
changes should be fairly significant and last through 2016.
    Mr. Cuellar. Okay. And I would ask you all, because I heard 
Mr. Clough what you said. I just got a copy. It was not 
attached to your testimony. I just got it right now. But there 
is no measurements and what percentage. Is that in a different 
document? Because one of the things that I want to see Federal 
agencies in doing is to have the mission, the goals and then 
what you are trying to measure, because I am looking at what 
just got provided to me and I do not see the performance 
measures. And why would you put them apart from the strategic 
plan?
    Mr. Clough. The plan, the Executive Summary of the Plan 
speaks to what we will measure, but not exactly what we have 
measured because we thought it would just be too much detail 
for the average person. But that is all available in public 
records. And we have, in fact, what we try to do as we develop 
the plan was to bring all of our, our stakeholders, meaning not 
just those of the Smithsonian but those outside the Smithsonian 
into the process of deciding what we should measure. And so 
that is available, and we can make that available to you.
    Mr. Cuellar. Yes, sir, thank you. And I appreciate all the 
work that you all do. Give me an idea, from each of you all, 
what you all measure?
    Mr. Clough. What we measure?
    Mr. Cuellar. Yeah.
    Mr. Ferriero. Okay, let us start with [remarks off mic].
    Sorry. How many people come through the door, but more 
interesting and more valuable are qualitative kinds of 
measurements. How effective was the visit? Did you get what you 
need? How qualified are the staff that you interact with? What 
did you learn from the experience? And then there are measures 
on resources, use of resources.
    Mr. Cuellar. Right. Mr. Clough.
    Mr. Clough. Somewhat similar for us in that, for example, 
for a museum visit, we survey our visitors and we have a 
standard to which we aspire for visitors saying this was an 
excellent visit, or this was a very good visit, or this was 
informative to me in a particular way. So, we have those kinds 
of measures. We also look at the number of people who come to 
our Web sites, how long they stay, what they tell us that they 
are learning. We are looking for more of a two-way exchange 
today as opposed to us simply measuring some temperature, but 
literally letting them tell us what they think. And we look for 
management expertise, excellence as well.
    Mr. Cuellar. My time is up. But let me just say this. I 
would ask you all to, one of the things about the measurements 
is that, I do not want to get caught up in measuring activity 
or how many pencils you have. I mean, that is a very simplistic 
idea, example. I would ask your staff that is sitting behind 
you that we measure the end results, the goals, to do that. 
Because it is easy to measure activity.
    But, once you set your mission and your strategic goals, 
how do we measure the end results? You know, what are the 
results? In other words, you can say, how do you improve 
education? There are certain things you look at by just 
counting how many teachers you have. So, I would love to sit 
down with you all because I am a big believer in having Federal 
agencies to do a lot more on the deeper thinking of strategic 
planning on this.
    But first of all, I just want to again say thank you to all 
three. We really appreciate the work that you and your staffs 
are doing.
    Thank you.
    Mr. Clay. The gentleman's time has expired. The gentlewoman 
from the District of Columbia, Ms. Norton, is recognized for 5 
minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. And thank 
you for bringing all three of these kinship agencies before us. 
They are very important to the District of Columbia, but 
exquisitely important to the Nation of the 20 million people or 
so who come to visit the Nation's capitol every year. Many do, 
in fact, visit all three of these institutions.
    I have questions. Let me begin with you, Mr. Ferriero. You 
are the junior member of the trilogy here, and I welcome you 
and congratulate you on your appointment. I congratulate you on 
the work on the exhibits that are up now and on your coming 
Civil War exhibition, which is much anticipated.
    I strongly endorse the transformation that has been 
underway for some time so that the Archives lose that aura. The 
word archives sends out the message, not to anybody I know, I 
was a history major so it would have interested me, but it is 
unfortunate that it does not fully describe in any sense what 
the Archives means to anyone even mildly interested in our 
country.
    So, I very much applaud what you are doing. I see the 
Archives much more as a museum like the Smithsonian Museum, 
frankly, that if you come here you ought to go to the Archives 
just the way you go to the Library of Congress to say, this, I 
have heard all my life about, let me see what really happens in 
here, let me look at it. The very same thing for the Archives.
    Now, I am not suggesting a name change here. But I am 
suggesting that you are transforming how, and this has been 
underway for some time. I am not sure Congress has been fully 
aware of how that transformation, how you keep up with that 
transformation, because with everybody else it seems to be we 
are back into the old Archives business, making sure that you 
do the filing, and that scholars can find what they need. Far 
be it from me to say that is not important. But the fact is 
that you serve the entire country.
    And there was a question asked by one of my colleagues 
about the so-called balance. Let me pick out one of the things 
that you do to ask you whether or not Congress needs to look 
more carefully at a transformation of its own, perhaps.
    If you go before an immigration court, you do not have any 
rights. I mean, you are not in the country, figuratively 
speaking, yet you are challenging some kind of order. So, we 
have immigration court, and you do not have discovery there.
    As I understand it, if you want to find out anything about 
what the Government, the other side who is in court with you, 
has on you, you have to do a FOIA request. And I understand 
these requests, which are very important, just as are the kind 
of requests we had in mind when we passed FOIA, or enacted 
FOIA, were important. But somebody, whether somebody stays in 
the country or leaves, whether or not there is false 
information regarding whether the person has been involved in 
some activity, terrorist or not, is what Government is relying 
on, that also is important.
    I do not know how you prioritize among the FOIA requests or 
what, or whether you are in, have any strategy for keeping 
yourself from being buried in FOIA requests, whether you have 
asked for a different way to handle FOIA requests, perhaps 
outside of the Archives, whether you have asked for more 
funding or staff to handle it. Or are you just sitting there 
letting the FOIA requests come in and somebody goes and look 
when she gets ready to, when she gets down to you?
    And of course if they get to the case, and I am not 
suggesting that all of these cases are full of content, but 
obviously they have the right to the FOIA because the courts do 
consider them if they happen to get the information in time. 
And guess what? If you do not get it in time, since you have no 
right to discovery, off with your head.
    What does the Archives do when it sees, I will not even 
call it new, but it certainly is not anticipated, use piling in 
on you? Are there more FOIA requests of this kind than any 
other FOIA requests? What are you doing about it?
    Mr. Ferriero. You are asking very good questions. And I 
said, this new OGIS operation that has been set up on the 
Archives is charged with speeding up and reducing the time to 
process those kinds of requests.
    I do not have concrete information about the nature of 
requests, but I can get that information and supply it. And 
this is, you know, we met 3\1/2\ weeks ago----
    Ms. Norton. Is it the largest number of FOIA requests?
    Mr. Ferriero. This is the first I have heard about this 
category of FOIA requests. So, I, at first blush----
    Ms. Norton. Well, I think it, I am suggesting that, you 
know, you can get all the money you want to. There are certain 
kinds of things you will never get enough money to handle. I 
think you ought to have your staff and your counsel looking at 
whether or not you ought to suggest that either some minimal 
rights be granted to people before immigration courts, which is 
in the jurisdiction of the Congress, or that something else be 
done. Because I do not see a way for you to get on top of what 
is an ever increasing number, nor do I think that the taxpayers 
of the United States ought to keep pouring money into something 
of a kind if there is another way to do it.
    I notice your budget has doubled with respect to 
Presidential Libraries. I wonder if that is getting some kind 
of preference over the last 10 years, some kind of preference 
over other kinds of things because, after all, they are 
presidents. Is that the case? I mean, have you had a doubling 
of your budget in any other part of what you do?
    Mr. Ferriero. Not that I am aware of. Although the budget 
has kept up with the increasing volume of material that the 
Archives is responsible for.
    Ms. Norton. Say that again?
    Mr. Ferriero. Every year, the Archives bring in more and 
more content and the budget has increased to support that. In 
terms of the Presidential Libraries, the staff prepared, just 
before I arrived, and submitted a report on the future of the 
Presidential Libraries which spells out five different 
scenarios for investigation. And I would expect that we would 
have a hearing on that in the New Year to talk about the future 
of the Presidential Libraries.
    Ms. Norton. I think that requires our attention, Mr. 
Chairman, because it is another area that can just run away 
with. After all, these Presidential Libraries are supposed to 
be supported by their own foundations as well as the taxpayers 
here and the Archives do have some responsibility. But it 
strikes me, it is interesting to me that that budget has grown, 
has doubled.
    Mr. Ferriero. It is a public private partnership. The 
libraries are built by private foundations and----
    Ms. Norton. And the foundations have to know that they have 
to keep working hard. And if they see the Government taking on 
more and more of it, there will be a disincentive there.
    I would like to ask Mr. Clough a question. The last time I 
looked, 70 percent of the funding of the Smithsonian was from 
the U.S. Government. Is it about that percentage now?
    Mr. Clough. Yes, it is about 65 percent by Federal 
appropriations and 35 percent by----
    Ms. Norton. I am very concerned with the fund-raising 
record of the Smithsonian. Here we have the most unusual, I 
would call it a unique collection, of museums, nothing like it 
in the world. Any city that had it in its midst would regard it 
as a treasure trove. I am struck dumb by why the Smithsonian 
has not been able to raise more private funds from across the 
United States. I need to know what your fund-raising model is, 
considering that I do not expect that the U.S. Congress is 
going to raise the percentage. We can hardly keep up with your 
backlog of repairs and alterations.
    Mr. Clough. Well, we are working hard on getting the 
message out about the Smithsonian and telling the correct story 
about the purposes that it serves to the American people and 
the world. This past year----
    Ms. Norton. What is the fund-raising strategy?
    Mr. Clough. I'm sorry?
    Ms. Norton. What is the, is there, you know, if you go to 
places like New York----
    Mr. Clough. Yes.
    Ms. Norton. You know, where you have major museums that 
have major fund-raising strategies----
    Mr. Clough. Yes.
    Ms. Norton. Even though the city of New York supports them. 
Is there such a strategy there besides telling people, this is, 
you know, let them know the kinds of things they can see? That 
is not going to raise funds.
    Mr. Clough. We are very close to having all the pieces in 
place. The first part was to develop our strategic plan, which 
we did, and that is now public. And then from that, we build 
what we call our case statement, which is that we have goals 
that we think that the American people and Members of Congress 
support for us. And then we try to identify the target for 
people who, corporations, foundations and so forth, who would 
support us.
    And this past year, we were pleasantly surprised. We had a 
goal of $120 million in private philanthropy and we raised $127 
million. So, we did better than we expected on that side. We 
think with the strategic plan in place and with a definite, 
concerted effort to reach out to the American people, we will 
do better.
    And our goal is to have a national campaign. And you all 
know from having your university experience that that takes a 
structure which we have not had. We are in the process of 
working with our Regents to put that in place. And by the end 
of the year, we should have not only the ideas, but also the 
structure in place to actually get this done. So I think you 
can look for better results from us shortly.
    Mr. Clay. The gentlewoman's time has expired and perhaps 
that is the subject of another hearing.
    Ms. Norton. I think so, Mr. Chairman. If I may request a 
fund-raising hearing on the private fund-raising on all three, 
but especially the Smithsonian. And the words national campaign 
were uttered. And you come from the academic----
    Mr. Clay. Staff will work with you on that.
    Ms. Norton. Exactly, Mr. Chairman, if I may so. Otherwise, 
the pressure is going to be on us to do something which we will 
not do.
    Mr. Clay. Okay.
    Ms. Norton. We already are charging to get into the so-
called butterfly exhibit. The Congress of the United States, 20 
million people come here are our constituents. We pay for this 
whole array. And the notion of charging to get in any part of 
it is anathema to us. So, I regard the butterfly exhibit as----
    Mr. Clay. We will examine those issues----
    Ms. Norton [continuing]. As an outrage and ask that we get 
private funds for that as well.
    Mr. Clay. Thank you. Thank you.
    Let me ask Dr. Clough, what can Congress do to support the 
work of our three great cultural institutions in fulfilling 
what you describe in your testimony as our, as your collective 
mission? What can we do to be of help?
    Mr. Clough. Well, I think it is a joint effort, a 
collective partnership between yourselves and us and the 
American people to fulfill our missions, which I think are 
fundamental and very important to our history and to the 
generations that will follow.
    I think, as was indicated by Dr. Ferriero, that Congress 
does a good job in terms of supporting our missions 
financially. Obviously, we could use additional funds because 
it is a struggle to find that balance between, if you will, the 
security and the access type of the equation and we deal with 
that every day. But we are very appreciative of the support we 
do get from Congress. This past year, in fiscal year 2010, for 
example, we got $2 million in addition to the funds that we had 
before to help us with collections care and security of our 
collections. And we very much appreciated that.
    But I think working collectively together, thinking 
together about the future of these institutions and making sure 
we are all headed in the right direction, is a powerful way to 
go forward.
    Mr. Clay. Thank you for that response.
    Dr. Billington, you write in your statement that the 
Library of Congress, the Smithsonian and the National Archives 
complement each other. In your opinion, is there room for more 
cooperation between these three institutions, especially in 
leveraging each one's inherent strengths, but organizationally 
and in your collections?
    Mr. Billington. Yes, Mr. Chairman, I think there is. I 
think that there are fundamental, clear, fairly clear lines in 
the sense that the official record of the U.S. Government is in 
the Archives, the Smithsonian has a vast array of things, but 
generally speaking, covering many of the areas that we do but 
in a different way. I mean, they tend to have three dimensional 
objects for exhibition. We tend to have two dimensional 
records, whether it is films, well, they have films, too. There 
is some duplication, but there is room. There is a fairly 
distinct division of labor which I think we all more or less 
honor.
    And so, but I think there is room for more collaboration. 
We all report to different committees, of course. I mean, you 
were mentioning, in terms of private fund-raising, we never 
even had a development office before I became Librarian. We get 
donations but our staff is very small. We have no Board of 
Governors, so there is no Board to help us in this regard.
    But we have two major donations, one from Mr. Kluge to set 
up a Kluge Center that is really a great additional boon to 
bring major scholars here for their work. And we also got this 
unprecedented gift from the Packard Humanities Institute that 
has enabled us to create this Audiovisual Conservation Center 
which has been able to bring back the world's largest 
collection of recorded sound and films, all in one place. They 
have been scattered. But that is a consolidation.
    And I think there is additional work that we can do and I 
would hope that we will have more conversations among ourselves 
to see if we cannot work together even more specifically than 
we have in the past.
    Mr. Clay. Thank you for that response.
    And Dr. Ferriero, along the same lines as Ms. Norton's 
questions, Presidential Libraries now make up about one-third 
of NARA's budget. And yet the backlog of FOIA requests at the 
libraries are years long and growing every year. It is 
estimated that it will take 100 years to process just the 
Reagan Library materials and the Bush and Clinton Libraries are 
facing similar issues.
    NARA continues to renovate not only aging buildings, but 
relatively young, permanent museum exhibits and educational 
programs, including using cutting edge technology and design. 
Is the Presidential Library System focused on the right 
priorities?
    Mr. Ferriero. Well, as I said, this is the subject of, I 
think, a future hearing. I can tell you in terms of resources 
the museum aspect of Presidential Libraries is about 4 percent 
of the budgets of the Presidential Libraries. So, in terms of 
resource allocation, it is the appropriate balance.
    The issue around maintenance and upkeep is one of the big 
issues in terms of the long-term future of the Presidential 
Library System. These are facilities that, with any 
decentralized system, over time require maintenance and upkeep. 
And there are soon to be 13 of more than 40 facilities that I 
am responsible for around the country.
    Mr. Clay. Let me ask you about the FOIA requests. Last 
week, the Director of the Office of Management and Budget 
issued an Open Government Directive that requires agencies to 
take a number of actions to improve access to Government 
information.
    Under the directive, each agency must take steps to reduce 
its backlog of FOIA requests by 10 percent each year. What 
actions will NARA take to reduce its FOIA backlog as required 
by the Open Government Directive? And what other steps does 
NARA plan to take to implement the directive?
    Mr. Ferriero. Well, as I said, this new office that we have 
set up is charged with specifically looking at that and making 
a set of recommendations about how we can reduce that backlog.
    Mr. Clay. Okay. All right. Well, I look forward to working 
with you in that capacity and all of the responsibilities of 
NARA. Welcome aboard.
    Mr. Ferriero. Thank you.
    Mr. Clay. Let me thank the entire panel for their testimony 
and you are dismissed. And we will call forward the second 
panel. Thank you.
    It is the policy of the subcommittee to swear in all 
witnesses. Would you please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you and you may be seated. Let the record 
reflect that the witnesses answered in the affirmative.
    Let me find my page. I would now like to introduce our 
second panel. Our first witness will be Anne L. Weismann, Chief 
Counsel for Citizens for Responsibility in Ethics in Washington 
[CREW], a non-profit organization dedicated to promoting 
transparency and accountability in government and public life.
    Ms. Weismann earlier served as Deputy Chief of the 
Enforcement Bureau of the Federal Communications Commission and 
prior to that as Assistant Branch Director of the Civil 
Division of the Department of Justice. She has supervisory 
responsibility over litigation on the FOIA, the Privacy Act, 
the Federal Advisory Committee Act, and statutes governing 
Federal and Presidential records.
    Ms. Weismann received her B.A., magna cum laude, from Brown 
University and a J.D. from George Washington University's 
National Law Center.
    Welcome to the subcommittee.
    Our next witness is Janet A. Alpert, president of the 
National Genealogical Society, a service organization that 
leads and educates the national genealogical community and 
promotes access to, and preservation of, genealogical records. 
Ms. Alpert is an amateur genealogist who has been researching 
her family for almost 30 years. In 2004, she retired from a 35 
year career in the title insurance industry.
    She received a B.A. degree in political science from the 
University of California at Santa Barbara and an MBA from the 
University of Connecticut.
    Thank you for being here.
    Our next witness will be Kevin Goldberg, legal counsel, 
American Society of News Editors. Mr. Goldberg's expertise is 
in First Amendment, copyright and trademark issues and he 
regularly advocates issues involving freedom of speech on 
behalf of press organizations. In 2006, he was inducted into 
the National Freedom of Information Hall of Fame for his 
continued and superlative service in pursuit of open 
government.
    Mr. Goldberg earned a B.A. degree from James Madison 
University and graduated with high honors from George 
Washington University Law School.
    Thank you for being here, Mr. Goldberg.
    And our final witness will be Mr. Carl Malamud, president 
and founder of Public.Resource.Org, a non-profit corporation 
that makes government information more broadly available on the 
Internet, including over 90 million pages of documents and 
1,000 videos. The organization has been leading a national 
effort called Law.Gov to make America's primary legal material 
more broadly available.
    Mr. Malamud previously served as Chief Technology Officer 
at the Center for American Progress. In the 1990's, he ran the 
first radio station on the internet and was responsible for 
putting the SEC, EDGAR and Patented data bases online. He is 
the author of eight professional reference books and numerous 
articles and has been a visiting professor at the MIT Media Lab 
and Keele University.
    And I thank all of our witnesses for appearing today and 
look forward to the testimony.
    Ms. Weismann, we will start with you.

  STATEMENTS OF ANNE L. WEISMANN, CHIEF COUNSEL, CITIZENS FOR 
   RESPONSIBILITY AND ETHICS IN WASHINGTON; JANET A. ALPERT, 
 PRESIDENT, NATIONAL GENEALOGICAL SOCIETY; KEVIN M. GOLDBERG, 
   LEGAL COUNSEL, AMERICAN SOCIETY OF NEWS EDITORS; AND CARL 
      MALAMUD, PRESIDENT AND FOUNDER, PUBLIC.RESOURCES.ORG

                 STATEMENT OF ANNE L. WEISMANN

    Ms. Weismann. Thank you.
    Mr. Chairman, Ranking Member McHenry and members of the 
subcommittee, thank you for the opportunity to testify today 
about the mission of the National Archives and Records 
Administration at this critical juncture.
    As Chief Counsel for CREW, we have been pushing NARA for 
years to assume the leadership role Congress envisioned for the 
agency through the Federal Records Act. Today, NARA must make 
some key decisions. The appointment of Dr. Ferriero as the new 
Archivist and the administration's dedication to a transparent 
and accountable government present NARA with unique 
opportunities to reexamine its mission and priorities and 
establish a new roadmap for how to achieve them.
    Most importantly, the Archivist must decide whether NARA 
will continue to elevate its role as the museum of the Nation's 
history over its role as a records access agency, the question 
this committee has posed. This juncture also affords Congress 
an opportunity to reexamine the laws that govern recordkeeping 
in the executive branch.
    First, the dismal state of electronic recordkeeping across 
nearly all agencies in the Federal Government cries out for a 
new direction from NARA. As documented in a report we issued in 
April 2008, and the periodic reports from the GAO, to date NARA 
has failed to affirmatively and effectively assist agencies in 
developing and implementing effective records management 
policies.
    The GAO's June 2008 report notes specifically that NARA's 
failure to conduct inspections of agency record management 
programs since 2000 leaves us with limited assurances that 
agencies are appropriately managing the records in their 
custody and that important records are not lost.
    We at CREW are confronted with this problem all the time as 
agencies tell us repeatedly in response to our FOIA requests 
that they simply have no way to access and search their 
electronic email records. Although this failure has now reached 
a crisis point, NARA continues to abdicate its statutory 
responsibilities and fails to recognize the urgency of the 
situation, opting instead, time and again, for a more passive 
role that avoids any direct conflict with the agencies it 
oversees.
    NARA justifies its failure to take on a more active role as 
resulting from the limited enforcement authority that the FRA 
confers on it. But we strenuously disagree and urge Mr. 
Ferriero to reevaluate the need for additional legislative 
authority only after NARA exercises the full authority it 
already has.
    Second, we urge NARA to conduct an independent audit of the 
Electronic Records Archive or ERA, including an analysis of its 
status, functionality and feasibility. Launched in 2001, the 
ERA has been promised as the answer to the long-term 
preservation of electronic records. But, in the intervening 
years, we have seen huge cost overruns, multiple instances of 
contractor mismanagement, and growing doubt about whether the 
ERA is capable of delivering on this promise. And just as 
critically, NARA has yet to tackle the issue of public access 
to records once they make their way into the system.
    Such an audit also has to consider the actions of the 
contractor Lockheed Martin and answer questions about its 
conduct. Why, for example, has Lockheed Martin applied for 
numerous patents related to the ERA despite the fact that the 
project is entirely federally funded?
    Even more fundamentally, should NARA even continue with the 
ERA given its problem to date? We ask the new Archivist to take 
a clear-eyed look at this question and, if necessary, have the 
courage to abandon the project if it cannot deliver on its 
promises.
    Third, NARA suffers from a culture of passivity that has 
prevented it from becoming an effective leader in the 
management and preservation of our Nation's history. And I am 
pleased that Dr. Ferriero recognizes these problems. With each 
day, month and year that goes by without effective management, 
we lose another slice of our history.
    President Obama has promised an unprecedented level of 
transparency and accountability. But this promise cannot be 
fulfilled if agencies fail to preserve agency records.
    In short, the status quo is unacceptable. We ask NARA now 
to reinvigorate and redefine itself as part of the solution, 
not the problem. We also ask that Congress consider legislative 
amendments that I have outlined in my written testimony that 
would add a measure of accountability and provisions that would 
better ensure compliance.
    We welcome the opportunity to work with this committee and 
the new leadership at NARA. I am happy to answer your 
questions. Thank you.
    [The prepared statement of Ms. Weismann follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. Clay. Thank you, Ms. Weismann. We look forward to 
working with CREW.
    Ms. Alpert, you may proceed for 5 minutes.

                  STAEMENT OF JANET A. ALPERT

    Ms. Alpert. Good afternoon Chairman Clay and members of the 
subcommittee. Thank you for the invitation to testify before 
the subcommittee today.
    My name is Janet A. Alpert and I am the president of the 
National Genealogical Society. Our members range from family 
history researchers to professional genealogists. The 
genealogical community is well represented in this room today.
    The following points are more fully described in my written 
statement which has been presented to the subcommittee. 
Additional statements of support and concern from other 
genealogy groups are available on our Web site at 
www.ngsgenealogy.com.
    The National Archives and Records Administration is a very 
important source of original records for the genealogical 
community. As a result, we are their largest research user 
group. The National Genealogical Society supports the mission 
of NARA, but we are concerned that the two most important 
priorities, to safeguard and preserve the records of our 
government and to ensure the continuing access to the essential 
documentation, are becoming secondary to the third tenant of 
the mission, to promote civic education and historical 
understanding of our national experience.
    Several examples support our position. NARA has a backlog 
of documents which have not been processed and many more 
records which will be coming to NARA for processing and 
safeguarding over the next few years. We are not aware of any 
plans to accommodate the increasing volume of records. It is 
important for the major collections to stay at the National 
Archives Building in Washington, DC, because people who travel 
here to do research need easy access to the other collections 
at the Library of Congress, the Smithsonian and the DAR 
Library.
    Second, the extensive record groups at NARA require skilled 
experts to assist researchers. Due to budget cutbacks, staff 
reductions and retirements, we believe the skill level of the 
staff is diminishing rather than increasing.
    Three, plans are underway to reduce the research area so 
the museum and exhibit area can be expanded. Continued access 
to microfilm and adequate research space is necessary until 
more of the records are digitized and available online.
    Four, NARA has shown leadership in developing partnerships 
with third parties to digitize many records which are very 
valuable to genealogists. However, we are not aware of plans to 
make these digitized records available to the public for free 
over the NARA Web site at the end of the 5-year contract 
period.
    So, as to the question, history museum or records access 
agency, from what we have heard, some of the planned exhibits 
will duplicate records already available on line through local 
libraries and they may misrepresent the complexity of the 
research process.
    We support civic education and we think it can best be 
accomplished at the national and regional archives through 
hands-on workshops with student groups and teacher training on 
using documentary sources in the classroom. We believe it would 
be more cost effective to spend the money building interactive 
learning and exhibits online which would reach the broader 
public, not just people who visit the National Archives in 
Washington, DC.
    There are already many wonderful museums among the Capitol 
Mall. Yet, there is only unique collection of original records 
at the National Archives.
    In summary, we recommend that the new U.S. Archivist, David 
Ferriero, take both appropriate short-term action and establish 
long-term strategies that support the priorities of records 
preservation and access.
    We also hope you will include genealogists in the planning 
process. The genealogical community stands ready to support the 
Archivist in building a world class research facility and model 
for emerging democracies around the world.
    Thank you.
    [The prepared statement of Ms. Alpert follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Ms. Alpert, for that 
testimony.
    Mr. Goldberg, you are recognized for 5 minutes.

                 STATEMENT OF KEVIN M. GOLDBERG

    Mr. Goldberg. Thank you.
    Chairman Clay, Ranking Member McHenry and members of the 
subcommittee, I want to thank you for the opportunity to 
testify today on behalf of the Sunshine in Government 
Initiative, a coalition of nine media organizations that 
includes the American Society of News Editors.
    Mr. Chairman, as you know, SGI and ASNE have a long history 
of working with this subcommittee on issues relating to the 
proper management and distribution of government information. 
We are here today to define the challenges facing the National 
Archives and Records Administration in fulfilling its mission 
in this area.
    NARA's mission mandates that the agency ensures that the 
people can discover, use and learn from America's documentary 
heritage. The democracy, civic education and historical 
understanding functions of the agency's mission statement are 
impossible without public access to records created not just 
decades ago but on a continuing basis.
    Now, a much-quoted visionary for government transparency, 
former Supreme Court Justice Louis Brandeis, saw an active and 
informed public as critical to a healthy democracy. Those who 
won our independence, Brandeis wrote, believed that public 
discussion is a political duty and that this should be a 
fundamental principle of American government.
    Having previously declared that sunlight is said to be the 
best of disinfectants, Justice Brandeis also clearly saw access 
to government information as democracy's oxygen. You cut off 
its supply, democracy dies.
    Ensuring access to information is central to SGI's mission. 
It is one of ASNE's core values. But 43 years after FOIA's 
passage, obtaining government information in a speedy or low-
cost fashion can still be difficult, if not impossible, for a 
reporter from a major daily newspaper, let alone the average 
citizen.
    That is why today's hearing is so important. Ensuring 
NARA's dedication to distributing its own records and its newly 
vested ability to assess other executive branch agencies' 
disclosure decisions is vital to our democracy.
    First, NARA must perfect its own access policies and 
activities. The agency, like so many others, has significant 
processing backlogs. NARA issued a FOIA Improvement Plan on 
October 16, 2006 in which it claimed it responded to 76 percent 
of all FOIA requests within the statutorily mandated 20 day 
response period. Well, Mr. Chairman, that falls into the C 
range on a 100 point rating scale. That is satisfactory, but I 
was not treated too kindly by my parents when I brought home 
Cs.
    NARA rightly notes that resources to address FOIA were 
reduced as FOIA requests increased. But part of the problem is 
that the agency does not appear to have fully implemented its 
own recommendations made in 2006. There are several links to 
NARA reference guides and to archival research catalogs. But 
the legally mandated access to actual records via NARA's 
electronic reading room appears limited and unimproved since 
2006.
    The need for NARA to get its own house in order is more 
significant now that Congress has entrusted the agency with a 
new office designed to deal with the public and other agencies 
to make FOIA work better. NARA must lead by example as the 
Office of Government Information Services becomes a key contact 
point for the public on FOIA and reviews other agencies' 
compliance with FOIA.
    For this hearing, I want to emphasize that for OGIS to be 
effective, the Archivist must embrace OGIS' active engagement 
with other agencies and the public. OGIS can first help 
unburden agencies from their FOIA requests by pushing agencies 
to put more information online without waiting for a request. 
More information online means fewer burdensome requests.
    As requesters understand that they have an ally in this new 
office, they will reach out to OGIS for assistance and 
education. This should result in faster processing as OGIS 
quickly resolves imprecise or misconstrued requests.
    Finally, OGIS intervention should be able to head off 
litigation when parties are simply at an impasse.
    But OGIS effectiveness in making FOIA work better for 
Federal agencies and the public will ultimately hinge on 
whether the office receives the proper support from the 
National Archives as a whole. This support rests on two key 
components: funding and independence.
    OGIS was appropriated $1 million in fiscal year 2009 and a 
budget of $1.4 million for fiscal year 2010. That money has 
allowed the office to hire a total of six employees. The office 
will eventually need more staff to accomplish its goals. This 
is why the Congressional Budget Office estimated OGIS would 
require a budget of $3 million in its first year and about $6 
million each thereafter to be fully functional.
    As important as proper funding is a commitment to OGIS 
independence. The combination of independence and recordkeeping 
acumen is the main reason Congress has the office within the 
National Archives. We hope that OGIS Director Miriam Nesbit and 
her staff will be given the trust and leeway needed to develop 
OGIS.
    We thank you for the opportunity to present our views on 
the future of the National Archives and the importance of this 
new OGIS office to the agency's mission.
    I welcome your questions.
    [The prepared statement of Mr. Goldberg follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Mr. Goldberg.
    Mr. Malamud, you are up for 5 minutes.

                   STATEMENT OF CARL MALAMUD

    Mr. Malamud. Thank you Chairman Clay and members of the 
subcommittee. I am particularly honored to be here today, 
following not only our dynamic new Archivist but also the 
secretary of the Smithsonian and the Librarian of Congress.
    Your invitation to testify asked me to discuss NARA's 
mission to preserve and ensure access to records, and asked if 
I believe the agency's efforts in exhibits and other programs 
influence that performance.
    When President Hoover laid the cornerstone for the National 
Archives Building, he stated there will be aggregated here the 
most sacred documents of our history, the originals of the 
Declaration of Independence and of the Constitution of the 
United States. The display of the Declaration of Independence 
and of the Constitution are certainly a visible symbol of our 
National Archives. But they are merely a symbol. It is the 
preservation of records and the corollary processes of 
gathering those records from the agencies and making them 
available to the public that are the core challenges of this 
unique institution.
    The Electronic Records Archives are certainly the biggest 
challenge facing the Archivist. This $551 million computer 
system has had a long history of false starts. Just last month, 
both the GAO and NARA's own Inspector General testified to this 
committee they have no idea what the system does, how it works, 
and where the money went.
    We do know that after $237 million spent to date, the 
system has no back-up and restore capabilities. We do know that 
public access to ERA is an afterthought. And we do know that 
the contractor, Lockheed Martin, has taken out 15 patent 
applications on the system. With a half a billion dollars in 
taxpayer money on the line, it goes without saying that the 
software should be open source so that any State archivist 
could run the same system.
    The ERA system is so complex because of the incoming deluge 
of electronic records. When the National Archives was being 
created, Archivist Connor faced a similar situation. At first, 
the Archives were simply unable to keep up. Archivist Connor 
instituted a series of changes, moving examiners closer to the 
source and providing better guidance and standardized forms and 
schedules to the agencies.
    For many years now, records management has been sorely 
neglected. Guidance has been limited to telling agencies to 
print and save, and a recent survey shows no agency-wide 
policies for important archives such as electronic mail. It was 
heartening to hear Archivist Ferriero list this area as one of 
his key concerns, stating that he would reinstitute agency 
inspections and that NARA should play a leadership role.
    In addition to electronic records, one of the key 
challenges facing NARA is digitization of older materials. 
Looking back again at Archivist Connor, we see that NARA dealt 
with an incoming deluge of paper records by pioneering an 
important set of technical advances, including the development 
of microfilm. Digitization of paper and other materials should 
be a key priority for NARA, as well as the Smithsonian, the 
Library of Congress and the Government Printing Office.
    In 1935, NARA secured President Roosevelt's support to get 
WPA funding to employ white collar workers to survey Federal 
archives. Recovery.gov shows no stimulus funding for NARA and, 
in the midst of the current depression, there is a tremendous 
opportunity to put people to work by creating public works for 
the digital age, an opportunity France seized just this Monday, 
announcing $1.1 billion in stimulus funding to scan their 
national library.
    Instead of viewing digitization of materials as an 
opportunity, the Archives has declared the task to be out of 
scope and has created as an alternative a series of public-
private partnerships with organizations such as Amazon.com. It 
is my understanding from NARA officials that a similar 
arrangement may be in the works in which a large number of 
congressional hearings would be scanned by LexisNexis and made 
available on that retail information system.
    In his opening statement at his confirmation, Archivist 
Ferriero also quoted Archivist Connor and his observation that 
45 percent of the records he surveyed were infested with vermin 
and insects and that records mingled higgledy-piggledy with 
empty whiskey bottles. This was a defining moment for the new 
institution and I think the National Archives faces another 
defining moment today.
    Thank you.
    [The prepared statement of Mr. Malamud follows:]

    [GRAPHIC(S) NOT IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much for that testimony.
    Let me start with Ms. Weismann. In your testimony, Mr. 
Malamud mentioned it also, you bring up the fact that NARA's 
ERA contractor, Lockheed Martin, has applied for 15 patents 
related to the program, which is taxpayer-funded. Now, can you 
please explain your concern that you have with the contractor 
applying for patents?
    Ms. Weisman. Well, I share Mr. Malamud's concern that this 
should be open source material. It is just inexplicable to me 
why it is that it is the subject of private patents. And if it 
were patentable, why the Government does not hold those patents 
and not a contractor. We are not talking about a system that 
has been built with commercial off-the-shelf software. It is 
being developed and built entirely with Federal funds.
    And I think it speaks to the larger concern I alluded to, 
which is NARA's failure to effectively oversee the contractor. 
And I know that the Inspector General at NARA, who I guess has 
testified before this committee, has also written some reports. 
And I think they detail his concerns as well.
    It is hard to really get to the bottom of it except that, 
at a minimum, it appears, at least to CREW, that NARA just does 
not have the technical and other know-how to effectively and 
adequately supervise this contract. And I think that is why 
here we are, these many years later and these many, many 
millions of dollars later, raising a question about whether we 
should even continue or abandon this project.
    Mr. Clay. Mr. Malamud, did you have anything to add?
    Mr. Malamud. Very quickly. I think the National Archives 
has a role to play in managing not only its own archives but in 
leadership to the archives in the 50 States and throughout the 
world.
    When they invented the microfilm and lamination and the 
airbrush in the 1930's, they did not patent those and their 
contractors did not and it spread throughout our archival 
science. The ERA system is something that any State archive 
should be able to run. And most importantly, by making it open 
source, we can see how the system functions, make sure it is 
secure, and make sure that it does the job that it is supposed 
to do. After all, it is our money as taxpayers that helped pay 
for this.
    Mr. Clay. Thank you. Thank you for that response.
    Going back to Ms. Weismann. In your written testimony, you 
urged the new Archivist to reevaluate the need for additional 
legislative authority only after exercising the full authority 
NARA currently has. Can you briefly explain what you meant by 
that statement?
    Ms. Weismann. Yes. Time and again, when we have gone to 
NARA and urged it to take a stronger leadership role, they have 
suggested that they are limited because they have very limited 
statutory authority. One of the provisions of the Federal 
Records Act that we have had an ongoing dispute with them about 
on this issue is the obligation to conduct inspections. They do 
not do that. And agencies know that they are not going to be 
inspected for records compliance and we have massive non-
compliance.
    And NARA has suggested, time and again, that it does not 
have the statutory authority to do anything more than it is 
already doing. If you look at the law, I think it is very 
clear. Congress envisioned, not only envisioned but commanded 
the Archivist to conduct inspections. And I think this is yet 
one of any number of examples where they have taken a very 
narrow view of their statutory authority.
    It is kind of remarkable really because sometimes we are 
dealing with runaway agencies that have a very expansive view. 
But NARA seemingly does not want to take on these 
responsibilities. And, frankly, it has seemed very risk 
adverse. It does not want to be in conflict.
    But we really welcome the new Archivist because it is our 
understanding that he shares the view that the problem is not a 
lack of statutory authority, it is a lack of will in exercising 
the authority they already have.
    Mr. Clay. Thank you for that response.
    Ms. Alpert, how has the practice of genealogical research 
changed and has NARA kept up with the needs of researchers in 
terms of resources, staffing and records processing?
    Ms. Alpert. Well, I think it is a continuation of this 
discussion about electronic records. NARA was a leader, as one 
of the other panelists said, in the 1930's. And now, so many of 
the records are going to be electronic. The new records are 
coming in electronically.
    And there are many, many records behind the scenes that are 
still in paper format and they are actually, if you are talking 
about pension records, they are actually in folders that are 
hundreds of years old.
    So, I think the real challenge for the Archivist is how he 
takes NARA to the next generation and how he keeps up with this 
electronic challenge that he has.
    Mr. Clay. And I think Mr. Malamud made a great suggestion 
as far as directing some of the stimulus money toward 
modernizing archivists' records.
    Ms. Alpert. As genealogists, the WPA work that was done 
exists on every county in the United States and we use it often 
because they characterized a lot of the records that existed. 
So, the work that was done in the 1930's is still being used 
today. It was extremely valuable.
    Mr. Clay. Thank you for that response. And let me say that, 
before I ask Mr. Goldberg a question, is that we asked for the 
stakeholder community to let you offer suggestions to Dr. 
Ferriero and his staff so that there can be a better working 
relationship between the two entities, I mean, between several 
entities. And so, I do not want this to appear to be 
adversarial in any way, but suggestions to the new Archivist as 
he enters his first phase in his new position.
    Mr. Goldberg, in your testimony, you discussed the 
challenges facing the new Office of Government Information 
Services or OGIS. What actions do you believe the new Archivist 
can take immediately and in the long run for OGIS to help meet 
its goals?
    Mr. Goldberg. Well, actually this is a particularly apt 
question coming on your previous comments about an adversarial 
role. I actually think we have had, our members of SGI, have 
had a wonderful relationship, not only with the new OGIS 
office, but with the National Archives as a whole. We worked 
very well with the prior Archivist and hope that that 
continues. We have every reason to expect that it will 
continue.
    In the short term, I think that the Archivist must place 
his trust in this new office. There are some very talented 
people there. We know Miriam, both from her work in Government 
and out of Government. We know she is going to do the job. She 
is extremely knowledgeable about these issues. So, one of the 
things he can actually do is let her do that job.
    In terms of supporting her in that job, and her staff, I 
think that comes in two areas. One, they really have to be 
championing the funding. This office is drastically under-
funded. Even State offices have more money and more employees 
allocated to them than this office has. Pennsylvania has about 
10 full-time employees, Connecticut about 20, to accomplish the 
same tasks on a much smaller scale.
    I also think it is going to be important, if they can do 
it, to get this office back downtown. It is a wonderful 
facility in College Park. But these folks are going to have to 
meet with other agencies. There was just discussion in the 
prior panel about meetings with the CIA. Well, that means you 
have to get from College Park to Langley. Anyone who has ever 
done that in rush hour traffic knows that it is almost 
impossible to get things done. You waste half your day doing 
it. So, I think that could really help them accomplish the 
mission if they have more accessibility to their agencies.
    Mr. Clay. Thank you for that answer.
    Mr. Goldberg, why is it important that NARA immediately 
address their processing backlog? What is the practical impact 
of the backlog on transparency in open government?
    Mr. Goldberg. Well, for our members, primarily journalists 
and authors, it simply means that information does not get out 
to the public. It means that waiting for necessary information 
will either result in the short-cutting of deadlines, or the 
short-cutting of publication, or the missing of deadlines 
outright. In either case, the public is the one that loses out 
as they lose viable information that they would be reading in 
stories.
    I have another more indirect effect and that is that for 
journalists and authors, they are going to now need to go more 
often to secondary sources to obtain information. Some of those 
people may not want to talk on the record. That really does our 
members a disservice in not being able to put the most credible 
publication forward, but also, of course, has led to other 
problems that we have seen in other areas, you know, needing 
the passage of a Federal shield law, things like that, to 
protect journalists that are covering Government.
    I think that we could help all of these problems out by 
ensuring that more of the direct, primary source information 
gets out to the public immediately.
    Mr. Clay. Thank you for that response.
    Mr. Malamud, a key item in several of these partnerships is 
that while NARA may not provide free online access to the 
digitized records for a period of several years, they may 
provide free access to their NARA facilities. We have heard 
from researchers that NARA may not be providing enough space 
and resources within their facility. But is there a larger 
problem here?
    Mr. Malamud. Well, Mr. Chairman, let me first reiterate 
your thoughts about working with NARA. There are no criticisms 
here. I have been very impressed by the new Archivist's 
openness and frankness.
    When you think about the NARA facilities, I think there is 
one every 10,000 square miles in the United States if you look 
at the total area. And if you look at the internet, NARA is 
everywhere on the internet. And today, public means online.
    If we are going to make materials available, we have to 
make them available on the internet. And that is the problem I 
have when we put a 5-year lien on the public domain materials, 
such as the deal with Amazon.
    Mr. Clay. You wrote in your testimony that the cost of 
scanning paper records would decrease dramatically on a larger 
scale. What are your thoughts on establishing such large 
scanning projects and what would be the costs and benefits?
    Mr. Malamud. Well, scanning is something that has several 
effects. First of all, it does provide public access. It also 
means that the storage requirements are significantly less. The 
state-of-the-art today is about 10 cents a page for paper 
documents to scan them, run through a CR and make them 
available. I believe if NARA and the Library of Congress and 
others were to engage in large scale scanning, that cost per 
page could get down to a nickel, maybe even lower.
    And it is something that would have a tremendous benefit 
and it would be, as I said before in my testimony, an enduring 
public work for our digital age. It is something that needs to 
be done and I hope that the new Archivist will embrace that 
challenge rather than looking at it as something that just 
cannot be done.
    Mr. Clay. In your comments you talk about there is one NARA 
facility for every 10,000 square miles in the United States. 
You really concern me because both of them, both facilities 
that were mentioned today, I have an attachment to one, being a 
Maryland Terrapin and having the facility in College Park I am 
very fond of that; and two, St. Louis houses the Personnel 
Records Center, so we also founded that. So, I guess it is just 
the nature of the beast. But you, Mr. Goldberg, really raise 
concerns there to talk about eliminating those.
    Let me thank the panel for their testimony today. And when 
staff initially proposed this hearing, I figured it would just 
be another boring hearing, especially with the subject matter. 
But having a new Archivist on board, we certainly welcomed him 
and we are all inspired by the future of the Archives because 
of who is heading it now.
    And also, this panel raised some very interesting issues 
that you made me aware of and educated this committee on. So, 
we are appreciative of that.
    And on that note, this hearing is concluded.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
